RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-1426
EPIC SYSTEMS CORPORATION,
Petitioner,
v.
TATA CONSULTANCY SERVICES LIMITED and TATA
AMERICA INTERNATIONAL CORP. D/B/A TCS AMERICA,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Carter G. Phillips, certify that
the Brief in Opposition in the foregoing case contains 7,258 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 11, 2021.
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

